Case 5:19-cv-00014-FPS Document 41 Filed 05/21/20 Page 1 of 1 PagelD #: 201
USCA4 Appeal: 19-7360

Filed: 05/21/2020

Doc: 27-2

Pg: 1 of 1

FILED: May 21, 2020 ij

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7360
(5:19-cv-OOO 14-FPS)

TODD GLENN DEAN
Plaintiff - Appellant
v.

F. ENTZEL, Warden; CHAPLAIN MARIA; CHAPLAIN FUENTES;
SUPERVISORY CHAPLAIN; UNKNOWN AGENTS
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR. CLERK

Case 5:19-cv-00014-FPS Document 41-1 Filed 05/21/20 Page 1 of 3 PagelD #: 202
USCA4 Appeal: 19-7360

£-Y>Wi

Filed: 05/21/2020

Doc: 27-1

Pg: 1 of 3

FILED: May 21, 2020

~ T) - 3.

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7360,

Todd Dean v. F. Entzel
5:19-cv-00014-FPS

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please be
advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: To be timely, a petition for certiorari
must be filed in the United States Supreme Court within 90 days of this court's entry of
judgment. The time does not run from issuance of the mandate. If a petition for panel
or en banc rehearing is timely filed, the time runs from denial of that petition. Review
on writ of certiorari is not a matter of right, but of judicial discretion, and will be
granted only for compelling reasons, ('www.supremecourt.gov)
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED COUNSEL:
Vouchers must be submitted within 60 days of entry of judgment or denial of
rehearing, whichever is later. If counsel files a petition for certiorari, the 60-day period
runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is being made from
CJA funds, counsel should submit the CJA 20 or CJA 30 Voucher through the CJA
eVoucher system. In cases not covered by the Criminal Justice Act, counsel should
submit the Assigned Counsel Voucher to the clerk's office for payment from the
Attorney Admission Fund. An Assigned Counsel Voucher will be sent to counsel
shortly after entry of judgment. Forms and instructions are also available on the court's
web site, www.ca4.uscourts.gov, or from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment. (FRAP
39, Loc. R. 39(b)).

Case 5:19-cv-00014-FPS Document 41-1 Filed 05/21/20 Page 2 of 3 PagelD #: 203
USCA4 Appeal: 19-7360

Doc: 27-1

Filed: 05/21/2020

Pg:2of3

e-xVuiptv - D- 3
PETITION FOR REHEARING AND PETITION FOR REHEARING EN
BANC: A petition for rehearing must be filed within 14 calendar days after entry of
judgment, except that in civil cases in which the United States or its officer or agency
is a party, the petition must be filed within 45 days after entry of judgment. A petition
for rehearing en banc must be filed within the same time limits and in the same
document as the petition for rehearing and must be clearly identified in the title. The
only grounds for an extension of time to file a petition for rehearing are the death or
serious illness of counsel or a family member (or of a party or family member in pro se
cases) or an extraordinary circumstance wholly beyond the control of counsel or a
party proceeding without counsel.
Each case number to which the petition applies must be listed on the petition and
included in the docket entry to identify the cases to which the petition applies. A
timely filed petition for rehearing or petition for rehearing en banc stays the mandate
and tolls the running of time for filing a petition for writ of certiorari. In consolidated
criminal appeals, the filing of a petition for rehearing does not stay the mandate as to
co-defendants not joining in the petition for rehearing. In consolidated civil appeals
arising from the same civil action, the court's mandate will issue at the same time in all
appeals.
A petition for rehearing must contain an introduction stating that, in counsel's
judgment, one or more of the following situations exist: (1) a material factual or legal
matter was overlooked; (2) a change in the law occurred after submission of the case
and was overlooked; (3) the opinion conflicts with a decision of the U.S. Supreme
Court, this court, or another court of appeals, and the conflict was not addressed; or (4)
the case involves one or more questions of exceptional importance. A petition for
rehearing, with or without a petition for rehearing en banc, may not exceed 3900 words
if prepared by computer and may not exceed 15 pages if handwritten or prepared on a
typewriter. Copies are not required unless requested by the court. (FRAP 35 & 40,
Loc. R. 40(c)).
MANDATE: In original proceedings before this court, there is no mandate. Unless the
court shortens or extends the time, in all other cases, the mandate issues 7 days after
the expiration of the time for filing a petition for rehearing. A timely petition for
rehearing, petition for rehearing en banc, or motion to stay the mandate will stay
issuance of the mandate. If the petition or motion is denied, the mandate will issue 7
days later. A motion to stay the mandate will ordinarily be denied, unless the motion
presents a substantial question or otherwise sets forth good or probable cause for a
stay. (FRAP 41, Loc. R. 41).

Case 5:19-cv-00014-FPS Document 41-1 Filed 05/21/20 Page 3 of 3 PagelD #: 204
USCA4 Appeal: 19-7360

Doc: 27-1

Filed: 05/21/2020

Pg:3of3

r.xWiHU -n-H
U.S. COURT OF APPEAL FOR THE FOURTH CIRCUIT BILL OF COSTS FORM
(Civil Cases)
Directions: Under FRAP 39(a), the costs of appeal in a civil action are generally taxed against appellant if a
judgment is affirmed or the appeal is dismissed. Costs are generally taxed against appellee if a judgment is
reversed. If a judgment is affirmed in part, reversed in part, modified, or vacated, costs are taxed as the court
orders. A party who wants costs taxed must, within 14 days after entry of judgment, file an itemized and
verified bill of costs, as follows:
• Itemize any fee paid for docketing the appeal. The fee for docketing a case in the court of appeals is $500
(effective 12/1/2013). The $5 fee for filing a notice of appeal is recoverable as a cost in the district court.
• Itemize the costs (not to exceed $.15 per page) for copying the necessary number of formal briefs and
appendices. (Effective 10/1/2015, the court requires 1 copy when filed; 3 more copies when tentatively
calendared; 0 copies for service unless brief/appendix is sealed.). The court bases the cost award on the page
count of the electronic brief/appendix. Costs for briefs filed under an informal briefing order are not
recoverable.
• Cite the statutory authority for an award of costs if costs are sought for or against the United States. See 28
U.S.C. § 2412 (limiting costs to civil actions); 28 U.S.C. § 1915(f)(1) (prohibiting award of costs against the
United States in cases proceeding without prepayment of fees).
Any objections to the bill of costs must be filed within 14 days of service of the bill of costs. Costs are paid
directly to the prevailing party or counsel, not to the clerk's office.
Case Number & Caption:
Prevailing Party Requesting Taxation of Costs:
Appellate Docketing Fee (prevailing
appellants):
Document

No. of Pages
Requested

No. of Copies

Allowed Requested

(court use only)

Amount Allowed:

Amount Requested:

Allowed
(court use only)

Page
Cost
(^$•15)

Total Cost
Requested

$0.00

TOTAL BILL OF COSTS:

Allowed
(court use only)

$0.00

1. If copying was done commercially, I have attached itemized bills. If copying was done in-house, I certify that my
standard billing amount is not less than $.15 per copy or, if less, I have reduced the amount charged to the lesser rate.
2. If costs are sought for or against the United States, I further certify that 28 U.S.C. § 2412 permits an award of costs.
3. I declare under penalty of perjury that these costs are true and correct and were necessarily incurred in this action.
Date:

Signature:

Certificate of Service
I certify that on this date I served this document as follows:
Signature:

Date:

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

Vu k~ £-~ 1
No. 19-7360

TODD GLENN DEAN,
Plaintiff - Appellant,
v.
F. ENTZEL, Warden; CHAPLAIN MARIA; CHAPLAIN
SUPERVISORY CHAPLAIN; UNKNOWN AGENTS,

FUENTES;

Defendants - Appellees.

Appeal from the United States District Court for the Northern District of West Virginia, at
Wheeling. Frederick P. Stamp, Jr., Senior District Judge. (5:19-cv-00014-FPS)

Submitted: May 19, 2020

Decided: May 21, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Todd Glenn Dean, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

fxVulon- Zr 2
PER CURIAM:
Todd Glenn Dean appeals the district court’s orders accepting the recommendation
of the magistrate judge and dismissing without prejudice his complaint filed pursuant to
Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388
(1971), for failure to exhaust administrative remedies, and denying reconsideration. On
appeal, we confine our review to the issues raised in the informal brief. See 4th Cir. R.
34(b). Because Dean’s informal brief does not challenge the basis for the district court’s
disposition, he has forfeited appellate review of the court’s orders. See Jackson v. Lightsey,
775 F.3d 170, 111 (4th Cir. 2014) (“The informal brief is an important document; under
Fourth Circuit rules, our review is limited to issues preserved in that brief.”). Accordingly,
we affirm the district court’s judgment. We dispense with oral argument because the facts
and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
(jLFFIRMEW

2

_ Cas„e 5:19-cv-00014-FPS-JPM Document 8 Filed 04/01/19 Page 1 of 5 PagelD #: 57

£.xl^ lori ' Q ' \ ' 5

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF WEST VIRGINIA

TODD GLENN DEAN,
Plaintiff,

v.

Civil Action No. 5:19cv14
(Judge Stamp)

F. ENTZEL, Warden;
CHAPLAIN MARIA;
CHAPLAIN FUENTES;
CHAPLAIN SUPERVISORY CHAPLIN;
UNKNOWN AGENT,
Defendants.
REPORT AND RECOMMENDATION
On February 7, 2019, the pro se plaintiff initiated this case by filing a civil rights
complaint against the above-named defendants. In addition, the plaintiff filed a Motion
for Leave to Proceed in forma pauperis. This case is before the undersigned for an
initial review and report and recommendation.
I. The Complaint
In the complaint, Plaintiff alleges that he was discriminated against by the
chaplain at FCI Hazelton because he is black. It appears that after a three-week tryout,
he was hired permanently to be the clerk in the chaplain’s library. The Plaintiff alleges
that Chaplain Maria treated the white inmate clerk better than he. He further alleges that
Chaplain Maria fired himself and a white inmate and less than one week later gave the
white inmate back his job. The Plaintiff alleges emotional distress hacmisp
from sjeeplessness, anxiety, marital problems, humiliation and loss of pay for being fired

Case 5:19-cv-00014-FPS-JPM Document 8 Filed 04/01/19 Page 2 of 5 Page ID #: 58

£.y. Vi i ia 14 ~ (-) J 3

or

for no reason. For relief, he seeks $1,000,000 in damages.

rt-l?<LF

„

rt.yrfcsVEJ * \ oo | o o o

II. Exhaustion of Administrative Remedies
Under the Prison Litigation Reform Act (PLRA), a prisoner bringing an action with
respect to prison conditions under 42 U.S.C. § 1983, or any other federal law, must first
exhaust all available administrative remedies. 42 U.S.C. § 1997(e)(a). Exhaustion as
provided in § 1997(e)(a) is mandatory. Booth v. Churner. 532 U.S. 731, 741 (2001). A
Bivens action, like an action under 42 U.S.C. § 1983, is subject to the exhaust of
administrative remedies. Porter v. Nussle. 534 U.S;: 516^ 524 ^2002): :The^hajistion
of administrative remedies “applies to all inmate suits about prison life, whether they
involve general circumstances or particular episodes,”1 and is required even when the
relief sought is not available. Booth at 741. Because exhaustion is a prerequisite to
be exhaustedp^rifojfiling a complaint
in federal court. See Porter. 534 U.S. at 524 (citing Booth.'532 U.S. at 741) (emphasis

Wei
In Woodford v. Nqo. 548 U.S. 81, 84-85 (2006), the United States Supreme
Court found that the PLRA’s exhaustion requirements serves three main purposes: (1)
to “eliminate unwarranted federal court interference with the administration of prisons;”
(2) to “afford corrections officials time and opportunity to address complaints internally
before allowing the initiation of a federal case;” and (3) “to reduce the quantity and
improve the quality of prisoner suits.” Therefore, the PLRA exhaustion requires full and
proper exhaustion. Woodford, at 92-94. Full and proper exhaustion includes meeting all

Id.
2

Case 5:19-cv-00014-FPS-JPM Document 8 Filed 04/01/19 Page 3 of 5 PagelD #: 59

Vu

\ \ ~ Q - 3>

the time and procedural requirements of the prison grievance system. Jd. At 1101-02.
In addition, although generally, the exhaustion of administrative remedies should
be raised by the defendant as an affirmative defense, the court is not foreclosed from
dismissing a case sua sponte on exhaustion grounds. See Anderson v. XYZ Prison
Health Services. 407 F.3d 674, 681 (4th Cir. 2005). If the failure to exhaust is apparent
from the face of the complaint, the court has the authority under to 28 U.S.C. § 1915 to
dismiss the case sua sponte. ]d. at 682.
The Bureau of Prisons makes available to its inmates a three level administrative
remedy process if informal resolution procedures fail to achieve sufficient results. See
28 C.F.R. § 542.10, et seq. This process is begun by filing a Request for Administrative
Remedy at the institution where the inmate is incarcerated. If the inmate's complaint is
denied at the institutional level, he may appeal that decision to the. Regional Office for
the geographic region in which the inmate's institution of confinement is located. For
inmates confined at FCI Hazelton, those appeals are:sent to the fyiidrAtlantic Regional
Director in ^rinapolis junction, Maryland: ^ If the Regional Office'denies relief, the inmate
*can> appeal totthe Offic^ of General Counsel'via, a Central Office Administrative. Remedy
. Appeal. An inmate must fully complete each level of the process in order to properly
fxhaust his;administra;tive rerpedies.
Here, the Plaintiff admits that he only filed a BP-9 because “the [prisoner]
litigation reform act does not require an inmate to plead and demonstrate complete
exhaustion of administrative alternatives to a law suit before filing suit. ECF. No. 1 at 4.
Thus, the failure to exhaust is clear on the face of the complaint and the sua sponte
dismissal of this action is appropriate. See Anderson. 407 F.3d at 682.
3

Case 5:19-cv-00014-FPS-JPM Document s Filed 04/01/19 Page 4 of 5 PagelD #: 60

~ Q~ H
III. RECOMMENDATION
In consideration of the foregoing, it is recommended that Plaintiffs complaint be
DISMISSED WITHOUT PREJUDICE for the failure to exhaust. It is further
recommended that the plaintiffs Motion for Leave to Proceed in forma pauperis (ECF
No. 2) and Motion to Appoint Counsel [ECF No. 7] be DENIED AS MOOT.
The Plaintiff shall have fourteen days from the date of filing this Report and
Recommendation within which to file with the Clerk of this Court, specific written
objectionsi identifying the portions of the.Reporf a^
°kj'£$tiofys rtiiade, and the basis pf such objection; A copy of such objections
should also be submitted to the United States District Judge. Objections shall not
exceed ten (10) typewritten pages or twenty (20) handwritten pages, including exhibits,
unless accompanied by a motion for leave to exceed the page limitations, consistent
with LR PL P 12.
Failure to file written objections as set forth above shall constitute a waiver
of de novo review by the District Court and a waiver of appellate review by the
Circuit Court of Appeals. Snvderv. Ridenour. 889 F.2d 1363 (4th Cir. 19891; Thomas
v- Arn, 474 U.S. 140 (19851: Wright v. Collins. 766 F.2d 841 (4th Cir. 19851; United
State v. Schronce. 727 F.2d 91 (4th Cir. 1984).
The Clerk is DIRECTED to send a copy of this Report and Recommendation to
the pro se Plaintiff by certified mail, return receipt requested, to his last known address
as shown on the docket. In addition, because this Report and Recommendation
completes the referral from the District Court, the Clerk is DIRECTED to terminate the

4

_ Case 5:19-cv-00014-FPS-JPM Document s Filed 04/01/19 Page 5 of 5 PagelD #: 61

f.xWrWn-Q-5
Magistrate Judge association with this case.
IT IS SO ORDERED.
DATED: April 12, 2019

we
JAMES P. MAZZONE
UNITED STATES MAGISTRATE JUDGE

\

5

Case 5:19-cv-00014-FPS Document 13 Filed 07/24/19 Page 1 of 2 PagelD #: 86

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
TODD GLENN DEAN,
Plaintiff,
Civil Action No. 5:19CV14
(STAMP)

v.
F. ENTZEL, Warden,
CHAPLAIN MARIA,
CHAPLAIN FUENTES,
CHAPLAIN SUPERVISORY CHAPLIN,
and UNKNOWN AGENT,
Defendants.

ORDER GRANTING AS FRAMED PLAINTIFF'S SECOND MOTION
FOR AN EXTENSION OF TIME TO FILE OBJECTIONS
TO MAGISTRATE JUDGE'S REPORT AND RECOMMENDATION
AND DENYING AS MOOT PLAINTIFF'S FIRST MOTION FOR
AN EXTENSION OF TIME TO FILE OBJECTIONS TO
MAGISTRATE JUDGE'S REPORT AND RECOMMENDATION
On April 17,

2019,

the plaintiff,

Todd Glenn Dean,

filed a

motion for extension of time to file objections to the magistrate
judge's

report

and

recommendation.

ECF

No.

9.

The

plaintiff

specifically requests that he be granted a 90-day extension to file
any such objections.

Id. at 1.

In support of this motion,

the

plaintiff states that the prison in which is incarcerated "just
came off a week[-]long lockdown .
lockdown."
Then,

.

.

only to go right back on

Id.
on July 1,

2019,

the plaintiff filed a motion for an

extension of time to file objections to the magistrate judge's
report and recommendation.

ECF No. 12.

The plaintiff specifically

requests that he be granted a 45-day extension to file any such
objections.

Id. at 1.

In support of this motion,

the plaintiff

Case 5:19-cv-00014-FPS Document 13 Filed 07/24/19 Page 2 of 2 PagelD #: 87

states that the prison in which he is incarcerated has been on
lockdown.

Idat 1.

For good cause shown, the plaintiff's motion for an extension
of time (ECF No. 12)

is hereby GRANTED AS FRAMED and plaintiff's

earlier motion for extension of time (ECF No. 9) is DENIED AS MOOT.
Accordingly, the plaintiff is ORDERED to file any objections to the
magistrate judge's report and recommendation on or before August
14. 2019.
IT IS SO ORDERED.
The Clerk is DIRECTED to transmit a copy of this order to the
pro se plaintiff by certified mail and to counsel of record herein.
DATED:

July 24, 2019

/s/ Frederick P. Stamp, Jr.
FREDERICK P. STAMP, JR.
UNITED STATES DISTRICT JUDGE

2

Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 1 of 8 PagelD #: 124

~ C~1~%

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA

TODD GLENN DEAN,
Plaintiff,
Civil Action No. 5:19CV14
(STAMP)

v.
F. ENTZEL, Warden,
CHAPLAIN MARIA,
CHAPLAIN FUENTES,
CHAPLAIN SUPERVISORY CHAPLAIN,
and UNKNOWN AGENT,
Defendants.

MEMORANDUM OPINION AND ORDER
AFFIRMING AND ADOPTING REPORT AND
RECOMMENDATION OF MAGISTRATE JUDGE.
OVERRULING PLAINTIFF'S OBJECTIONS
AND DISMISSING CASE WITHOUT PREJUDICE
I.

Background

The pro se1 plaintiff, Todd Glenn Dean,
FCI Hazelton,
Bivens
(1971).

v.

Six

filed this
Unknown

ECF No. 1.

civil

Federal

an inmate housed at

action asserting a
Narcotics

Agents,

claim under
403

U.S.

388

In his complaint, the plaintiff alleges he was

denied "equal protection by municipal entity or any other person
acting under color of Federal Law."

Id. at 3.

Specifically, the

plaintiff alleges that he was discriminated against because he is
black.

Id. at 7-8.

The plaintiff claims that while working as a

clerk in the chaplain's library, Chaplain Maria treated the white

lw

Pro se" describes a person who represents himself in a court
proceeding without the assistance of a lawyer. Black's Law
Dictionary 1416 (10th ed. 2014).

Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 2 of 8 PagelD #: 125

c-a

trrbr
Id.

inmate clerk better than she treated him.

The plaintiff

further alleges that Chaplain Maria fired him and the white inmate
clerk over a disagreement, but then hired the white clerk back just
f.rrnr j
The plaintiff admitted that he did not
one weeK later.
Id.
exhaust his administrative remedies,

stating that "the prisoners

litigation reform act does not require an inmate

to plead and

demonstrate complete exhaustion of administrative alternatives to

"damages

for

emotional

The plaintiff seeks

Id. at 4.

a law suit before filing suit."

distress

because

plaintiff

suffers

sleeplessness, anxiety, stress, marital problems, humiliation, and
loss of pay for being fired for no reason." Id. at 9.
Frror |
the plaintiff seex? $l, OUUTTJOO. 00 in damages.2 Id.
On the same day,

For relief,

the plaintiff filed a motion for leave to

proceed in forma pauperis (ECF No. 2) and he later filed a motion
to appoint counsel (ECF No. 7).
Pursuant

to

28

U.S.C.

Prisoner Litigation 2,
Magistrate
recommended

Judge
that

§

636(b)(1)(B)

and

Local

Rule

of

this case was referred to United States

James

P.

Mazzone.

"Plaintiff's

complaint

prejudice for failure to exhaust."

The
be

magistrate
dismissed

ECF No. 8 at 4 .

judge
without

The magistrate

judge further recommended that the plaintiff's motion for. leave to

in- or
y
2The plaintiff seeks $1,000, 000■00 in damages in his original
complaint (ECF No. 1), but appears to seek $100,000.00, in later
o~V
submissions to this Court (ECF Nos. 10 and 17).

Or * ryufll

2

Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 3 of 8 PagelD #: 126

proceed in forma pauperis

(ECF No.

2)

and his motion to appoint
Id.

counsel (ECF No. 7) be denied as moot.
The

plaintiff

then

filed a

Objection and Subjection,

// 3

motion

ECF No.

titled

10.

as

"Motion

for

In that motion,

the

plaintiff states that he should have been granted in forma pauperis
The plaintiff asserts that he is entitled to a

status.

Id. at 1.

liberal

construction

of

his

pleading,

and

then

he

lists

the

injuries that have resulted due to the actions alleged in his
complaint.

Id. at 1-2.

further relief,

This motion also contained a request for

in which the plaintiff requested "an injunction

compelling defendants to provide or adopt a new policy or custom on
misconduct and behavior and discrimination and retraining along
with

$100,000

Additionally,
misunderstood

in

compensatory

the
in

plaintiff

the

report

money
contends

and

Id.

damages."
that

his

recommendation

and

at

2.

claim

was

that

"the

complaint should have been read to raise Bivens claims and Federal
Tort Claims Act (FTCA) claims."
that "[b]ecause the court may

Id.

The plaintiff further asserts
Lrror j
[have] mistakenly dismissed [sic]

plaintiff[' s ] claim base[d] on the (FTCA) administrative exhaustion
and repleading a cognizable

(FTCA)

claim

[he]

should hereby be

granted (90) days from the date of this order to file a[n] amended
complaint alleging a

cognizable Bivens

Fourteenth Amendment of

3This Court construes the assertions in plaintiff's "Motion
for Objection and Subjection" (ECF No. 10) as objections to the
magistrate judge's report and recommendation (ECF No. 8).
3

Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 4 of 8 PagelD #: 127

deliberate indifference claim and that he be allowed to exhaust
[sic] the rest of his administrative remedies under 28 § 2675(A)
and [to] notify the Court that he has begun the second part of the
administrative remedy."
The plaintiff
complaint.

Id. at 3.

then

ECF No. 11.

filed what

is

docketed

as

an

amended

In that document, the plaintiff asks the

...Q)r^dy___^
Court "to stop any kind of retaliation that

[he] may be facing.

[He is] in great fear of being transfer[red] from [ ] Hazelton[,]
[j]ust

because

of

[the]

administrative
Id. at 1-2.

law-suit that [he] filed."

remedy

appeal

and

the

He indicates that he has

a "medical hold" that prevents him from being transferred.

Id.

at 2.a The plaintiff also asks this Court to ensure he remains at
NlOti °nI U»S-?.
FCI Hazelton in order to stay close to his family in Pittsburgh.
Id. at 1.
The plaintiff has also filed two motions for an extension of
time to

file a

recommendation.

response

to

the magistrate

ECF Nos.

9 and 12.

judge's

report

and

This Court then granted as

framed the plaintiff's second motion for an extension of time to
file objections to the magistrate judge's report and recommendation
and denied as moot plaintiff's first motion for an extension of
time to .file
recommendation.

objections

to

ECF No. 13.

the magistrate

judge's

report

and

Specifically, this Court ordered the

plaintiff to file any objections on Or before August 14, 2019.
at 2 .

4

Id.

Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 5 of 8 PagelD #: 128

ixU V)t \ ' C~ S
The plaintiff then filed what is
Objection. // 4 .ECF No. 17.

titled as

a

"Motion for

In that motion, the plaintiff reiterates

many of the same assertions made in his "Motion for Objection and
Subjection"

(ECF No.

10).

In this motion he requests that this

Court "allow this case to move forward, because the staff [ ] at
F.C.I. Hazelton will not provide [him] with [ ]

(memo) as it's been

stated in [his] rejection notices from (central office) that would

-y-

---------------------

clearly be admitting the wrong, it also state that [he] should re
submit it back to the level of the original rejection, which would
be back to the regional appeal on the (B-P-10) See Exhibit # U~2[]
of the rejection form, and now the same reason's of rejection from
(central office), as well this is just a run-round or a delayed and
denial tacked because staff will not give or provide
such (memo).

.

[him]

with

Id. at 2.

-For the reasons that follow, this Court finds that the report
and recommendation of the magistrate judge

(ECF No. 8)

should be

adopted in its entirety.
II.

Applicable Law

Under 28 U.S.C. § 636(b) (1) (C) , this Court must conduct a de
novo review of any portion of the magistrate judge's recommendation
to which an objection is timely made.

Because the plaintiff filed

“Like the assertions in the plaintiff's "Motion for Objection
and Subjection" (ECF No. 10), this Court construes the plaintiff's
assertions in his "Motion for Objection" (ECF No. 17) as additional
objections to the magistrate judge's report and recommendation (ECF
No. 8).
5

• Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 6 of 8 PagelD #: 129

f*w:vav-c-4
objections to the report and recommendation, the magistrate judge's
recommendation will be reviewed de novo as to those findings to
As ■ to

which the plaintiff objected.

those

findings

to which

objections were not filed, all findings and recommendations will be
upheld unless they are "clearly erroneous or contrary to law."

28

U.S.C. § 636(b) (1) (A) .
Ill.
In reviewing the record,

Discussion
the report and recommendation,

and

the plaintiff's objections, this Court finds that the objections
are without merit.
In

the

report

and

recommendation,

correctly determined that

the

magistrate

the plaintiff had not

judge

exhausted his

administrative remedies, a requirement for a prisoner to file suit.
Id. at 5.

The magistrate judge concluded that "the failure to

exhaust is clear on the face of the complaint and the sua 'soonte
dismissal of this action is appropriate."

Id. at 6.

As to the plaintiff's general requests

for "an injunction

compelling defendants to provide or adopt a new policy or custom on
misconduct and behavior and discrimination and retraining along
with $100,000 in compensatory money damages" (ECF No. 10 at 2; ECF
No.

17 at 2),

failed

to

this Court finds that because the plaintiff has

exhaust

his

granting such relief.

remedies,

it

is

premature

to

consider

Moreover, this Court further finds that it

is premature to consider the plaintiff's request for this Court "to

6

. Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 7 of 8 PagelD #: 130

stop any kind of retaliation that [he] may be facing." (ECF No. 11
at 1-2).

As stated above,

remedies.

Further,

the plaintiff must first exhaust his

there is no evidence that the plaintiff has

been transferred to another location.
recent

filing

(ECF No.

17),

his

allegedly taken at FCI Hazelton.
After

conducting

an

Indeed, in the plaintiff's

assertions

relate

to

actions

See ECF No. 17 at 2.

appropriate

de.

novo

review

of

the

plaintiff's objections to the report and recommendation, this Court
upholds

the

magistrate

judge's

report

and

recommendation

and

overrules the plaintiff's objections.
IV.

Conclusion

For the reasons discussed above, the report and recommendation

£.r-rar

^

of the magistrate judge (ECF No. 8) is hereby AFFIRMED and ADOPTED
in its entirety.

Accordingly, the plaintiff's complaint (ECF No.

1) is DISMISSED WITHOUT PREJUDICE, and the motions to proceed in
forma pauperis

(ECF No. 2) and motion to appoint counsel (ECF No.

7) are DENIED AS MOOT.
are OVERRULED.

Plaintiff's objections (ECF Nos. 10 and 17)

Moreover,

the plaintiff's amended complaint

(ECF

No. 11) is DISMISSED WITHOUT PREJUDICE.
It is further ORDERED that this case be DISMISSED WITHOUT
PREJUDICE and STRICKEN from the active docket of this Court.
Should the plaintiff choose to appeal the judgment of this
Court to the United States Court of Appeals for the Fourth Circuit
on the issues to which objection was made, he is ADVISED that he

©

Case 5:19-cv-00014-FPS Document 18 Filed 08/15/19 Page 8 of 8 PagelD #: 131

£.y.WVbv V ~ Cc %
must file a notice of appeal with the Clerk of this Court within 60
days after the date of the entry of this order.
IT IS SO ORDERED.
The Clerk is DIRECTED to transmit a copy of this memorandum
opinion and order to counsel of record herein and to the pro se
plaintiff by certified mail.
Procedure 58,

Pursuant to Federal Rule of Civil

the Clerk is DIRECTED to enter judgment on this

matter.
DATED:

August 15, 2019

/s/ Frederick P. Stamp, Jr.
FREDERICK P. STAMP, JR.
UNITED STATES DISTRICT JUDGE

8

uoom^

Mppeai: ia-/oou

uuu; o i

rneu: u//^o/^uzu

rg: i 01 i

FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7360
(5:19-cv-OOO 14-FPS)

TODD GLENN DEAN
Plaintiff - Appellant
v.

F. ENTZEL, Warden; CHAPLAIN MARIA; CHAPLAIN FUENTES;
SUPERVISORY CHAPLAIN; UNKNOWN AGENTS
Defendants - Appellees

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Harris, and
Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

Additional material
from this filing is
available in the
Clerk's Office.

